<html>
<title> - HEAD HEALTH CHALLENGE:</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



                               
                       HEAD HEALTH CHALLENGE: 
                      PREVENTING HEAD TRAUMA FROM
                      FOOTBALL FIELD TO SHOP FLOOR
                             TO BATTLEFIELD

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

                           Serial No. 115-42

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-412 PDF              WASHINGTON : 2018             
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas

                            C O N T E N T S

                           December 13, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives                                                 16
    Written Statement............................................    17

                               Witnesses:

Dr. Michael Fasolka, Acting Director, Material Measurement Lab, 
  NIST
    Oral Statement...............................................    20
    Written Statement............................................    22

Mr. Scott A. Kebschull, Vice President and Technical Director, 
  Dynamic Research, Inc.
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Alex O. Dehgan, Chief Executive Officer and Founder, 
  Conservation X Labs
    Oral Statement...............................................    39
    Written Statement............................................    41

Mr. Shawn Springs, Chief Executive Officer, Windpact
    Oral Statement...............................................    55
    Written Statement............................................    57

Robert Daniel Reisinger, Director of Engineering, 6D Helmets, 
  LLC.
    Written Statement............................................    62

Discussion.......................................................    69

             Appendix I: Answers to Post-Hearing Questions

Dr. Michael Fasolka, Acting Director, Material Measurement Lab, 
  NIST...........................................................    82

Mr. Scott A. Kebschull, Vice President and Technical Director, 
  Dynamic Research, Inc..........................................    87

Dr. Alex O. Dehgan, Chief Executive Officer and Founder, 
  Conservation X Labs............................................    88

Mr. Shawn Springs, Chief Executive Officer, Windpact.............    96

 
                         HEAD HEALTH CHALLENGE:



                         PREVENTING HEAD TRAUMA



                          FROM FOOTBALL FIELD



                      TO SHOP FLOOR TO BATTLEFIELD

                              ----------                              


                      Wednesday, December 13, 2017

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning, and welcome to today's hearing entitled 
``Head Health Challenge: Preventing Head Trauma from Football 
Field to Shop Floor to Battlefield.''
    I now recognize Chairman Smith, who has another hearing 
right now, to give his statement first as he has another 
obligation in Judiciary Committee that he needs to get to. 
Chairman Smith.
    Chairman Smith. Yes, I appreciate your recognizing me out 
of order. I do have to shuttle between hearings, so that will 
be helpful.
    And thank you to Chairwoman Comstock for holding today's 
hearing.
    The Science Committee has a longstanding, bipartisan 
interest in the use of science prizes and challenge 
competitions to address difficult national problems. The 
American Innovation and Competitiveness Act, signed into law in 
January of this year, included provisions from our Committee 
that streamlined and improved how federal agencies participate 
in science prize competitions.
    Our Committee is particularly supportive of the Head Health 
Challenge due to the involvement of the National Institute of 
Standards and Technology, or NIST, over which this Committee 
has jurisdiction. NIST has been a leader among federal science 
agencies in challenge prizes and science competitions, 
including private-public and multi-agency initiatives.
    Science prizes aren't new. At a Science Committee hearing 
last Congress, curators from the Smithsonian brought the 
original $25,000 prize check earned by Charles Lindbergh for 
his solo, nonstop flight from New York to Paris in 1927. At the 
time, Lindbergh's daring feat and the $25,000 prize attracted a 
lot of attention. But few people understood what we know today, 
that Lindbergh's achievement launched the age of aviation and 
the aerospace industry.
    Scientific prizes and challenges are proven approaches for 
spurring innovation and solving problems. As we will hear this 
morning, collaboration between the federal government and the 
private sector adds credibility and is often the best way to 
trigger breakthroughs.
    Our witnesses will tell us about the final phase of the 
Head Health Challenge, a challenge prize sponsored by NIST, the 
National Football League, Under Armour, and General Electric. 
The objective of this challenge is to accelerate the design and 
development of advanced materials for helmets, pads and other 
products that protect against head injuries.
    Better design and materials for helmets and other 
protective gear can reduce head injury risk in many 
occupations. These include all sports and at all levels of 
competition, head--high-risk jobs like construction, 
manufacturing, and forestry, first responders, frail elderly 
individuals and, importantly, our American soldiers.
    DOD estimates that 22 percent of combat casualties from the 
conflicts in Iraq and Afghanistan involved brain injuries, 
compared to 12 percent of Vietnam-related combat casualties. 
Improved helmet protection is one of the best steps we can take 
as a nation to improve the quality of life for our military 
veterans.
    Preventing or minimizing head injuries is also an important 
public health and safety issue for children on bicycles, for 
amateur and professional athletes, for fire and police 
personnel, and for men and women of all ages and all walks of 
life. I look forward to hearing from our witnesses about the 
success of the Head Health Challenge and yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairwoman Comstock. Thank you, Mr. Chairman.
    And I now recognize Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you, Chairwoman Comstock, for holding 
this hearing, and thank you to our witnesses for being here 
today.
    Prizes and other types of challenges have proven to be 
valuable tools to advance research and technological innovation 
to help solve some of today's biggest social and economic 
problems, including head injuries.
    Under the Obama Administration, the federal government's 
use of prizes and challenges increased exponentially, and we've 
heard that the current Administration is likewise interested in 
maximizing the use of such competitions.
    It is important for this Committee to periodically examine 
federal agencies' use of prizes authority, so I'm pleased that 
we're having this hearing this morning.
    Since World War II, the United States has become a leader 
in advancing science and innovation thanks in large part to 
long-term commitment of the federal government to research and 
development. Today, grants, contracts, and cooperative 
agreements form the cornerstone of government support for R&D. 
While these traditional research financing mechanisms continue 
to be critical, they also require a big upfront investment with 
no guarantee of success.
    For certain types of scientific and technological problems, 
prize competitions and challenges can stimulate major 
breakthroughs with little to no risk to the taxpayer. Science 
prizes and challenges, whether cash prizes or nonmonetary 
awards, incentivize creative approaches to bold but achievable 
goals. Early prize competitions dared inventors to do the 
unthinkable: to fly over the Atlantic Ocean, to determine 
longitude for accurate ship navigation, and to preserve food to 
feed an army on the battlefield. Achieving bold goals requires 
bold thinkers, and prize competitions and challenges often 
attract participants who do not typically seek government 
grants or contracts. The nation's advancement and innovation 
depends on thought leaders with a diversity of ideas and 
experience.
    I have long supported the use of prizes to promote the 
advancement of emerging technologies. I co-authored the H-Prize 
Act which became law in 2007. It has given the Department of 
Energy authority to conduct prize challenges for development of 
hydrogen as a transportation fuel. I also introduced a bill to 
provide prize authority to The National Science Foundation and 
supported the 2010 COMPETES reauthorization provision that 
provided broad prize authority to all federal agencies.
    And I'm soon going to be introducing a bill called the 
Challenges and Prizes for Climate Act, which will establish new 
prize competitions overseen by the Department of Energy to work 
toward breakthroughs in clean energy technology development and 
implementation and climate change adaptation and mitigation. I 
urge my colleagues to look at this bill and to consider co-
sponsorship.
    One hundred federal agencies have offered 800 prizes since 
the launch of Challenge.gov in 2010. The NIST Head Health 
Challenge III is one such example, and I believe it may serve 
as a model for public-private collaboration in the development 
and implementation of a prize competition. As the witnesses 
describe their experience in the Head Health Challenge, I hope 
they'll leave us with their thoughts on how this challenge has 
changed the protective gear industry, why it was successful, 
and what if anything they might have improved in the design or 
implementation of the challenge. I also look forward to hearing 
what next steps are planned and underway to take advantage of 
the lessons learned and technological advances made during the 
three Head Health Challenges.
    Ensuring that the attention and excitement generated by 
challenge is effectively channeled into action upon its 
conclusion is one of the hardest parts of running an effective 
challenge, and I look forward to hearing from our witnesses 
their best ideas for doing that.
    I also look forward to Dr. Dehgan's testimony about his 
work launching USAID's global challenges for development and 
his current work to facilitate public-private partnerships for 
prizes and challenges. I believe he will help us understand the 
types of problems that are best solved through open innovation 
and some of the cutting-edge new ways prizes and challenges are 
being used. I also look forward to hearing his thoughts on how 
federal prize competitions and challenges best fit in the 
government's broader R&D portfolio.
    Thank you, Madam Chairman. I look forward to hearing from 
the witnesses this morning, and I yield back.
    [The prepared statement of Mr. Lipinski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairwoman Comstock. Thank you. And I now recognize myself 
for a five minute opening statement.
    The purpose of this morning's hearing is to review the 
results of the final phase of the Head Health Challenge, a 
significant public-private collaboration for public health and 
safety. This worthy event is cosponsored by the National 
Institute of Standards and Technology (NIST) and three private 
organizations: the National Football League, General Electric 
Corporation and Under Armour, Inc. The final phase of the Head 
Health Challenge is aimed at design and development of advanced 
materials to improve protective equipment and prevent head 
injuries in sports, industry, the military and others who are 
at a higher risk of head trauma.
    As a mom of three children who did play sports, the boys 
played football, my daughter played soccer, baseball--and I 
think we covered all the sports among the three of them--but 
now with five grandchildren, I really appreciate all of the 
work you're doing. It'll just be great for our children, as 
well as for our warriors and for our professional--I mean, 
there's just--this covers so many areas, so I'm just really 
excited about what you're doing for our entire community.
    These kinds of public-private science challenges have a 
long history of catalyzing innovation and creating solutions to 
difficult problems. For instance, the Longitude Prize of 1714, 
offered by the British Government, resulted in the marine 
chronometer and dramatically improved shipping safety. Napoleon 
Bonaparte's 1800 Food Preservation Prize led to development of 
canned foods.
    More recently, spurred by the clean-up problems after the 
Deepwater Horizon disaster in 2009, the Wendy Schmidt Oil 
Cleanup X CHALLENGE of $1 million demonstrated a technology 
that had more than four times the previous recovery rate for 
cleaning oil off the ocean's surface.
    In recent years, NIST and other federal agencies have 
organized and/or supported prize competitions and challenges 
that ranged from accelerating the development of autonomous 
vehicles to breakthroughs in facial recognition technology. 
NIST and other federal agencies are involved in a number of 
multi-agency and private-public challenge initiatives, for 
which I congratulate them.
    As my colleagues know, provisions of the American 
Innovation and Competitiveness Act, which originated in this 
Subcommittee, streamline prize competition procedures for 
federal science agencies and encourage them to consider them to 
stimulate problem-solving innovation. There is no shortage of 
priority research areas for which federal agencies should 
consider using prizes in the future. Health issues are at the 
top of my list because there is the potential to save many 
lives and also save huge sums of taxpayer money, as well as 
protect the quality of life in so many different areas.
    At the last hearing on this subject, subcommittee members 
and our witnesses discussed the potential for catalyzing 
development of portable dialysis devices. A breakthrough in 
portable dialysis would improve hundreds of thousands of lives 
and could save Medicare billions of dollars every year and 
again obviously improve the quality of life.
    Another terrible disease for which a public-private 
challenge prize might be considered is Alzheimer's disease. 
More than five million Americans live with Alzheimer's today, 
and that total could triple by 2050 if there aren't 
breakthroughs in prevention and treatments.
    Through support for basic research, through support for 
measurement science, through support for commercialization of 
taxpayer-funded research breakthroughs, and through science 
prize competitions, the top priority of the Science Committee 
is to encourage innovation and technological breakthroughs and 
advancements.
    Initiatives like the Head Health Challenge encourage 
individual incentive and inspire creative solutions. They 
leverage significant private sector investments in important 
national priorities, for instance, preventing serious head 
injuries. And they engage the brightest and most creative minds 
our nation has.
    We look forward to hearing from some of those best and 
brightest minds this morning, including Shawn Springs from 
Windpact, Inc., which is located in the 10th Congressional 
District of Virginia that I am proud to represent. I hope the 
stories of all our witnesses will help to inspire a new 
generation of scientists and entrepreneurs.
    [The prepared statement of Chairwoman Comstock follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman Comstock. And I now recognize Mrs. Johnson, the 
Ranking Member, for her opening statement.
    Ms. Johnson. Thank you very much, and good morning. I'd 
like to thank Chairwoman Comstock and Ranking Member Lipinski 
for holding today's hearing on the NIST Head Health Challenge 
and the benefits and challenges of federal prize competitions. 
I support the federal government's use of prizes and challenges 
to spur innovation and technology breakthroughs.
    However, I want to begin with a brief comment about our 
larger commitment to research and development. I am deeply 
troubled that so many of our colleagues would support a tax 
bill that adds $1 trillion or more to the deficit while helping 
only the wealthiest among us and at the same time repeatedly 
vote to cut funding for research and so many other critical 
investments in our future. Many of my colleagues would even 
make it impossible for any but the wealthiest Americans to 
pursue graduate degrees in STEM because of proposed changes to 
the tax law.
    While tough choices have to be made, and I am confident the 
overwhelming majority of my colleagues on my side of the aisle 
are willing to have those discussions, cuts to our federal R&D 
enterprise weakens the country's ability to be a leader in 
innovation, economic growth, and job creation. No corporate tax 
cut will fix that. Our competitors have the same tough budget 
choices to make, yet they are not just maintaining their R&D 
investments but increasing them.
    While prizes and other types of challenges are not a 
substitute for the sustained investment in long-term national 
outlook that traditional federal R&D funding provides, they do 
have a role in how the government funds R&D. The prize 
authority granted to all federal agencies in 2010 COMPETES 
reauthorization stimulated a significant increase in agencies' 
use of such competitions of incentives, more high-risk, high-
reward research. Prizes also help agencies to reach out to a 
broader partnership of researchers and innovators across all 
areas of science and technology. I'm encouraged by indications 
that the current Administration will continue support for prize 
competitions.
    With several years of experience to build out--to build on, 
there are many lessons learned on how to best design and 
implement successful prize initiatives. There's also a new 
category of prize design expertise both in the government and 
the private sector. The NIST Head Health Challenge III appears 
to be a good model for public-private partnership and for the 
use of a challenge competition to spur innovation that had 
largely stalled. I look forward to hearing from NIST and the 
participants in this challenge about what worked well and how 
any lessons learned might be applied to future challenges. I 
also look forward to a broader discussion on how best to 
incorporate prizes into our broader federal R&D agenda.
    I thank all of our witnesses for being here, and I yield 
back. Thank you.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. I will now introduce our witnesses. 
Our first witness today is Dr. Michael--am I going to get 
this--Fasolka, okay, Acting Director of the Material 
Measurement Lab at NIST. MML, one of the seven research 
laboratories within NIST, did all the measurements and testing 
for the Head Health Challenge. This challenge was NIST's first 
prize competition conducted under the America COMPETES Act of 
2010.
    We should also note that the American Innovation and 
Competitiveness Act, which was signed in the law in January 
2017, included a number of provisions that originated in our 
Committee that are named in encouraging more activity like NIST 
co-sponsorship of the Head Health Challenge. Dr. Fasolka has 
held his current position since 2012 and is responsible for 
strategic planning, communications, and operations for the lab. 
He received a Bachelor's of Arts in Liberal Studies from the 
University of Pittsburgh and his Ph.D. in Material Science and 
Engineering from MIT.
    Now, our second witness today is Mr. Scott Kebschull, Vice 
President and Technical Director of Dynamic Research, Inc., 
DRI. He has been with DRI for over 30 years primarily working 
on crashworthiness and occupant protection for passenger cars, 
motorcycles, and off-road vehicles. He is an expert in multi-
body and finite element computer simulation, the work that 
resulted in the team's winning of the Head Health Challenge 
grand prize. He holds a Bachelor's of Science in Mechanical 
Engineering from Valparaiso University and a Master's of 
Science degree in Mechanical Engineering from the University of 
Southern California.
    Dr. Alex Dehgan, our third witness, is Chief Executive 
Officer and Founder of Conservation X Labs. He recently served 
as the Chief Scientist at the U.S. Agency for International 
Development where he was the architect of a number of new 
agency institutions, including the Grand Challenges for 
Development program, which used prizes to open innovation and 
address the biggest emerging global challenges. To date, USAID 
has launched nine Grand Challenges for Development. Dr. Dehgan 
earned a Bachelor's of Science from Duke University, as well as 
a Master's of Science and a Ph.D. from the University of 
Chicago. He also holds a J.D. from the University of California 
Hastings.
    Now, Mr. Shawn Springs, our final witness, is Chief 
Executive Officer of Windpact, a northern-Virginia-based safety 
technology company that I'm proud to have in the 10th District 
of Virginia that is leveraging its patented padding technology 
to improve impact performance in helmets and protective gear. 
Windpact participated in certain Head Health Challenge 
competitions resulting in a first-place victory in the 1st and 
Future competition, as well as an award under the 
HeadHealthTECH II challenge.
    From 1997 to 2010, Mr. Springs played football 
professionally for the Seattle Seahawks, the Washington 
Redskins, and the New England Patriots. It is that unique 
experience that he really brings a full range of experience, 
and also being a dad I'm sure, and I really appreciate your 
engagement on this issue.
    He holds a Bachelor's of Science in Sociology from Ohio 
State University, and while playing for the Seahawks, Mr. 
Springs continued his education by attending the University of 
Washington, where he was inducted into the Society of National 
Collegiate Scholars.
    So I now recognize Dr. Fasolka for five minutes to present 
his testimony.

               TESTIMONY OF DR. MICHAEL FASOLKA,

        ACTING DIRECTOR, MATERIAL MEASUREMENT LAB, NIST

    Dr. Fasolka. Good morning, and thank you for inviting me 
today. Before I begin my testimony, we have a short video about 
the Head Health Challenge III.
    [Video shown.]
    Chairwoman Comstock. Thank you so much. As a mom who would 
just wince at all those things as you see them on the field and 
everywhere else, it's exciting. And please, you don't have to 
take that out of your five minutes, so go ahead.
    Dr. Fasolka. Chairman Smith, Ranking Member Johnson, 
Chairwoman Comstock, Ranking Member Lipinski, and members of 
the subcommittee, thank you for the opportunity to discuss 
NIST's role in the Head Health Challenge III, which advanced 
the materials used in protective gear and help small companies 
mature ideas into marketable products.
    Thank you for your attention to the video, which was made 
in 2015 when the semifinalists were announced. I'm pleased to 
testify today, along with the challenge grand prize winners who 
were named this past September.
    NIST helps to ensure the U.S. system of measurements is 
firmly grounded in sound scientific and technical principles. 
The Head Health Challenge III is just one example of how NIST 
measurement science helps industry overcome barriers to 
developing new products and to manufacture them efficiently and 
reliably.
    While NIST has a long history of inspiring solutions to 
difficult problems using challenges, this was our first offer 
of cash prizes through a public-private partnership. The Head 
Health Challenge III is just one aspect of the larger Head 
Health Initiative launched by GE and the National Football 
League in 2013 to quote, ``accelerate concussion research, 
diagnosis, and treatment.'' NIST and Under Armour joined with 
GE and the NFL on this challenge to spur development of 
improved impact-resistant materials. As you saw in the video 
NIST's role was to act as a neutral provider of various 
technical results for the challenge.
    One of the barriers to innovation in helmet design has been 
the lack of data of how well new materials absorb forces. More 
and better materials data helps manufacturers understand if 
developing a product with new material will result in improved 
performance. It is especially difficult to test how materials 
perform in real-world conditions such as when they are 
compressed, flexed, on a playing field, or in combat.
    Small and medium-size companies may not have the resources 
to develop such types of facilities, so for this challenge we 
build on NIST expertise and measurements of body armor for law 
enforcement to make new instruments for materials testing. We 
also created a method to measure the forces exerted on the 
material by a rotational--also called shear--impacts which are 
under-evaluated in today's protective gear.
    Many of the participants in this challenge said that they 
benefited from having their candidate materials assessed by 
NIST's new instruments. We tested the finalists' materials 
under a broad range of conditions: impact forces range from 
those seen in youth leagues to professional sports; test 
temperatures range from freezing to a hot summers day; and when 
we executed what might be a full season's worth of impacts 
about 20--1,200 hits. A panel of independent experts from 
industry, academia, and government evaluated the competitors' 
written proposals, their materials, along with the NIST test 
data to choose a winner.
    A collaborative team, Dynamic Research and 6D Helmets, 
clinched the grand prize of $500,000 provided by NIST. Their 
material reduces some impact measures by nearly 80 percent 
compared to the benchmark materials we examined and helps 
reduce the transmission of rotational forces.
    Beyond the prize money, the Head Health Challenge III 
generated terabytes of test data, which allowed some of the 
participants to inform computer models of how their materials 
respond to impacts. To serve the broader community, we will 
release to the public the data generated from our tests of the 
nonproprietary baseline materials we used. In addition, our new 
measurement capabilities will provide data for a materials 
genome approach to impact-resistant systems so that more people 
can benefit from higher-performing materials sooner.
    Since the launch of Head Health Challenge III, NIST has 
announced more prize competitions at the Challenge.gov website. 
We also established a NIST-wide community interested in using 
these mechanisms to further our mission. We greatly appreciate 
the efforts of the Members of this Committee and other Members 
of Congress to support federal agency use of prize competitions 
and challenges. Thank you very much.
    [The prepared statement of Dr. Fasolka follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
       
    Chairwoman Comstock. Thank you. Mr. Kebschull.

              TESTIMONY OF MR. SCOTT A. KEBSCHULL,

             VICE PRESIDENT AND TECHNICAL DIRECTOR,

                     DYNAMIC RESEARCH, INC.

    Mr. Kebschull. Good morning. My name is Scott Kebschull. I 
am Vice President and Technical Director of Dynamic Research, 
Inc., of Torrance, California. I want to thank Chairwoman 
Comstock, Ranking Member Lipinski, Chairman Smith, Ranking 
Member Johnson, and fellow members of the Subcommittee on 
Research and Technology for the opportunity to speak to you 
today about the Head Health Challenge III.
    My company, DRI, partnered with 6D Helmets for the Head 
Health Challenge III prize competition to develop a material 
suitable for use in football helmets or other protective 
equipment that can better protect against traumatic brain 
injury. DRI is primarily involved in automotive research and 
testing, as well as helmet research and testing. 6D Helmets 
designs and manufactures helmets for bicycle and motorcycle 
riders that uses their patented omnidirectional suspension 
technology. 6D's role in this project was to provide the 
intellectual property and to fabricate the material samples for 
testing, and DRI's role was to manage the project, develop the 
simulation models, and optimize the geometry and material 
characteristics.
    Football helmets with foam liners have been around since 
the 1950s. With the latest helmets available on the market, 
fatal head injuries are rare, but concussions still occur 
frequently. Traditional helmet liners are made out of 
monolithic blocks of foam. When these blocks of foam are 
optimized for linear performance, in other words, their 
performance in a perpendicular impact, they are much too stiff 
in shear, as occurs in glancing impacts. It has been known for 
many years that absorbing the energy in linear impacts is 
important for head protection, and more recently, it has become 
clear that cushioning impacts that cause rotation of the head 
is also important to protecting against both severe brain 
injuries, as well as concussion. Therefore, our goal was to 
develop a multi-impact material that performs well in both 
linear and shear impacts over a wide range of impact 
severities.
    This is an early prototype of the material that we 
developed. They are based on 6D Helmet's omnidirectional 
suspension technology modified for multi-impact usage. The 
material comprises top and bottom layers of foam separated by a 
layer of foam columns glued to the top and bottom layers. As 
you might expect, since the layer of columns has quite a bit of 
empty space between the columns, this layer is softer in 
compression than the top and bottom layers. This provides good 
impact protection in lower speed, or minor, linear impacts. The 
layer of columns also allows the top layer to slide laterally 
relative to the bottom layer in order to mitigate shear 
impacts. The key breakthrough in our research was identifying a 
method for making the material softer in shear without changing 
the linear performance, which allows optimization of the 
material for both linear and shear performance.
    Now that we have won the Head Health Challenge III Grand 
Prize, our next step is to incorporate this material into a 
football helmet and optimize it for both linear and shear 
impacts in severe and also relatively minor impacts. The 
research which has brought us to the point where we are now 
would not have been possible without the Head Health Challenge 
competition.
    The announcement of the competition solicited 125 ideas for 
improved materials. From that 125, the judging panel selected 
the most promising five finalists to receive first-round 
funding to develop their ideas, and of those five, we were 
selected the Grand Prize winner. This approach in my opinion 
proved to be a cost-effective way of soliciting a wide variety 
of ideas from bright people around the country to find 
potential solutions to a very difficult problem. Without the 
science prize competition format, the judging panel would not 
have seen these 125 ideas and would not have benefited from 
seeing how the five selected ideas could be developed.
    In addition, there would not have been the added benefit of 
competition. It's difficult to quantify, but for me, the 
competition aspect was a great motivator. We spent hours poring 
over our simulation models, brainstorming ideas about how to 
achieve the best results, and wondering what our competition 
was up to.
    In my view, some problems, such as the one we're talking 
about today, have proved to be difficult for the private sector 
to solve alone. Funding is very difficult to come by for ideas 
that have not yet reached a particular level of development, 
but ideas cannot reach that level of development without 
funding. For these problems, one of the ways that the federal 
government can spur innovation is through the use of science 
prize competitions. In partnership with key stakeholders from 
the private sector who can provide much-needed financial and 
technical resources, I believe these competitions can result in 
revolutionary breakthroughs.
    The concussion problem is most visible at the NFL and 
college levels, but the benefits of improved helmets can go 
well beyond that. Over one million kids play high school tackle 
football in the United States, as well as over one million 
younger children. Protecting them needs to be a high priority.
    The materials that we are developing also holds promise for 
other types of helmets. 6D has already incorporated the key 
breakthrough that I mentioned earlier into its latest cycling 
helmet that recently arrived on the market. Potentially, this 
material could also be used in other multi-impact helmets such 
as hockey or lacrosse helmets, in other protective equipment 
such as shoulder pads, in flooring or turf sub-surfaces, or in 
protective crash barriers on roadways.
    In view of my experience with the Head Health Challenge and 
the important strides that have been made towards improved head 
impact protection, I would urge you to continue to support 
science prize competitions. Thank you for your time.
    [The prepared statement of Mr. Kebschull follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairwoman Comstock. Thank you very much. And now, we will 
hear from Dr. Dehgan.

                TESTIMONY OF DR. ALEX O. DEHGAN,

              CHIEF EXECUTIVE OFFICER AND FOUNDER,

                      CONSERVATION X LABS

    Dr. Dehgan. Good morning. Chairman Smith, Ranking Member 
Johnson, Chairwoman Comstock, Ranking Member Lipinski, and 
other esteemed Members of the Subcommittee, thank you very much 
for the opportunity to present today.
    We face many challenges as a country. Many of those 
increasingly fail to respect political boundaries, state 
sovereignty, even military force.
    Mr. Lipinski. Excuse me, Dr. Dehgan, is the microphone on 
or you need to move it closer to you.
    Dr. Dehgan. Oh, I'm so sorry. There are challenges that 
come from scientific competition with new powers that seek to 
claim our place as America's greatest--as the world's greatest 
economy and scientific engine.
    We've seen that our solutions tend to be linear but the 
problems are exponential, so we need to incentivize the 
revolutionary over the evolutionary and broaden the available 
solutions in our scientific and technical arsenal.
    Much as we've created many of these problems, we possess 
the abilities to address them by harnessing American ingenuity, 
entrepreneurship, and leadership. Many of these grand 
challenges are actually grand opportunities, and we can use the 
power of open innovation to transform the very realm of what is 
possible, to democratize our ability to solve the challenges 
that face our nation, and to accelerate and fully harness our 
nation's ingenuity.
    You've heard about my fellow witnesses, about the power of 
open innovation for the Head Health Challenge. I want to make 
the case for their larger use. The basic value proposition is 
this: Instead of looking for the needle in haystack, you're 
incentivizing the needle to find you, right? Open innovation 
through prizes, challenges, advanced market commitments solve a 
fundamental problem that we face in government, that talent is 
everywhere but opportunity is not. They allow government to be 
in the business of creating greater opportunity to harness 
American talent to solve our most pressing problems, to unlock 
creativity, to break down barriers between scientific fields 
that are frequently stovepiped.
    I want to go through some of the benefits of open 
innovation. Next slide, please.
    [Slide.]
    First, and this is very relevant to Congress, they are 
efficient and careful uses of American taxpayer dollars. They 
are pay-for-success mechanisms rather than pray-for-success 
mechanisms. They serve as forms of procurement reform that 
allow anyone to be able to solve the problem and even can 
eliminate sources of bias. They leverage additional funds by 
the innovators. They have low monitoring costs of fund 
disbursements. They have simple application processes. They 
were procurement performed for USAID in terms of who could 
come, and because of that, 50 percent of the applications 
actually came out of the developing world, came from sectors 
that never approached our agency before, and they could also 
jumpstart very importantly the flow of private capital. They 
help create new solutions and support out-of-the-box thinking. 
Because they're focused on the problem and not the solution, 
they don't constrain the potential innovation space but can 
draw from new sectors. They can bring in new solvers by 
mobilizing new talent to what seem to be intractable problems.
    The history of science is filled with instances of 
outsiders proposing novel and ultimately revolutionary 
solutions to problems that insiders had failed to solve. They 
attract a diverse group of experts, of practitioners, of 
laypeople regardless of formal credentials to try to take them 
on. And we saw that--again, that many of the applicants to the 
Grand Challenges for Development of USAID were first-time 
applicants to the agency, and that was important for us.
    I want to give one quick example which was Saving Lives at 
Birth, and it was our very first grand challenge. And it was 
fundamentally about two problems. How do we ensure that we can 
provide access to world-class health care to women and children 
from the onset of labor to 48 hours after delivery, and how do 
we do so whether--where they give birth, whether in a hospital 
or a hut, to make that distinction of where they give birth 
irrelevant to their ultimate success in what we're trying to 
do?
    The reason is we can't afford to build hospitals in every 
village around the world. We can't afford to train doctors. We 
can't afford to actually provide the equipment that they 
needed. So how in the absence of that could we achieve our 
mission on global health as an agency? And what we found was an 
outpouring of ideas and innovations that we never even saw 
before, including one that came from an Argentinian car 
mechanic that was the first new tool for obstructed labor in 40 
years. We never could've seen that. Others came from 
undergrads, biomedical engineers at Duke and Rice University 
that are now scaling up. All these tools are now scaling up 
worldwide.
    Finally, prizes and challenges I think can help create new 
industries. The history of prizes and challenges are filled 
with that. Napoleon's food preservation prize helped--led to 
canning, the billiard prize to replace ivory led to plastics, 
the Orteig Prize helped create the commercial airline industry, 
the Ansari X prize helped with the private spacecraft industry, 
and the DARPA Grand Challenge led to self-driving cars. These 
are great opportunities for our country. Prizes and challenges, 
they don't work for every case and every situation, but they're 
a tool within our arsenal to be able to use to advance American 
innovation. Thank you.
    [The prepared statement of Dr. Dehgan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Springs for his testimony.

                TESTIMONY OF MR. SHAWN SPRINGS,

               CHIEF EXECUTIVE OFFICER, WINDPACT

    Mr. Springs. Good morning, Chairwoman Comstock and Ranking 
Member Lipinski and distinguished Members of the Subcommittee. 
Thank you for the opportunity to participate in today's 
discussion on the Head Health Challenge. My name is Shawn 
Springs. I'm the Chief Executive Officer of Windpact, a 
northern-Virginia-based safety technology company I founded in 
2011.
    Windpact is an innovative startup with a goal to become the 
most advanced impact protection company in the world. We 
leverage our patented Crash Cloud technology to improve impact 
performance in helmets and protective gear.
    Learning and accepting the guidance from the medical 
community, our aim is to be the catalyst of innovation for 
impact protection technology so manufacturers can build better 
products for their customers. Windpact partners with top 
equipment brands to improve products by replacing their 
existing padding with our Crash Cloud technology. We are 
working with multiple customers across sports and recreation, 
including football, baseball, lacrosse, and hockey brands, and 
are in negotiating partnerships in other sectors, including the 
military and automotive.
    My inspiration for founding Windpact stems from my desire 
to make playing sports safer for the next generation of 
athletes. I spent 20 years playing football, including 13 years 
in the National Football League.
    Windpact has participated in a few Head Health Challenge 
competitions resulting in a first-place victory in the First 
and Future Competition, which was held during Super Bowl 
weekend down in Houston, partnering with the NFL and Texas 
Medical Center, the largest medical center in the world. There 
were 200 participants, and we were fortunate to come out and 
win our category for best materials for the game, as well as an 
award under the HeadHealthTECH Challenge--a group of challenges 
launched over the last 12 months through collaboration with NFL 
and Duke University's Clinical and Translational Science 
Institute. We won our second award.
    As a startup company, gaining access to, and trust from, 
larger brands can be a challenge. As a recipient of multiple 
awards, we have found that a formal acknowledgement and support 
of our technology by an institution like NIST or Duke 
University's Clinical and Translational Science Institute 
through the HeadHealthTECH program provides welcome validation 
and legitimacy to our own findings.
    I strongly believe that public-private science prize 
competitions are invaluable to the advancement of player 
safety. The NFL has done a good job the past few years 
partnering with corporations and research facilities to 
encourage the improvement of the technology to protect its 
players. Having sustained concussions and witnessed concussions 
among friends and teammates, I developed a sense of urgency and 
obligation to work towards a solution and affect change. It's 
important to me to protect the future of players from injury 
and make both the game I love and other sports safer.
    There has been a growing negative attention directed to 
sports in the past few years with the elevated awareness of 
concussions and injury, resulting in a reduced participation, 
especially at the youth level. I feel strongly that is the 
opposite reaction that we need. Team sports and recreational 
activities are invaluable in what they provide to our 
communities and children.
    While football has received the bulk of the attention for 
injuries to its athletes, they are now also receiving 
compliments for the work they are doing to spur innovators, 
entrepreneurs, and manufacturers to build the next generation 
of protective gear. It's imperative for other industries to 
follow suit by creating their own initiatives to improve 
safety. Protecting our loved ones with better equipment is 
Windpact's mission statement, but it is also a common goal for 
parents, players, coaches, emergency responders, and military 
personnel as well.
    Our experience has been that public-private science prize 
is an excellent way to spur innovation and speed up much-needed 
improvements to the market. The right partners and support of 
the funding program like Head Health Challenge are providing 
opportunities to young companies beyond what otherwise would be 
accessible to them. I recommend the continued exploration and 
investment in these types of competitions across sports and 
beyond.
    Another operation is needed to continue to update and 
modernize standards. This underscores the need to update 
standards as go hand-in-hand with private sector innovation. 
Windpact welcomes the opportunity to participate in future 
challenges. Science prize competitions spur innovation, and 
that requires significant capital investment.
    Thank you for the opportunity to offer my testimony, and I 
look forward to answering any questions.
    [The prepared statement of Mr. Springs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairwoman Comstock. Thank you so much. And I really thank 
the witnesses for their testimony. And in addition to the 
testimony submitted by our witnesses today, I ask unanimous 
consent that the written testimony submitted by Mr. Robert 
Reisinger, Cofounder and Director of Engineering at 6D Helmets 
and co-winner of the Head Health Challenge be included in the 
record. He was invited to testify today but unfortunately was 
unable to attend. So without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Chairwoman Comstock. And I now recognize myself for five 
minutes for questions.
    Mr. Springs, I really appreciate your goal of becoming the 
most advanced impact protection company in the world and having 
it right in Loudoun County in the 10th District. You know, we 
know how important this is in sports, but as number of you have 
mentioned, head injuries particularly in construction continue 
to be a serious issue, obviously, our warriors, accidental 
falls are a problem with the elderly, and so these innovations 
that your company is working on, can you draw on a little bit 
how they are going to be applicable to preventing head injuries 
in the workplace, in the military, in homes, in healthcare 
settings? And then I'll just add a little bit, too, also about 
how we sell changing this concept to teams and team sports and 
how we move that in and get people to adapt, maybe engage 
parents and sort of a community engagement on this and 
understanding the issue.
    Mr. Springs. Right. When I founded Windpact, I believed 
there was an opportunity to bridge the gap because I spent 
several times listening to the hearings on concussions and 
traumatic brain injuries, and I believed there was a real 
opportunity because innovation had lagged for 30 years in 
football. There needed to be a bridge between what the really 
smart people like many of these panelists here today who were 
trying to figure out how the brain works on rotational impacts 
and how you lower peak linear accelerations, and the guys who 
are building products--companies like Riddell.
    I believe that there still is a knowledge gap. My goal when 
I started Windpact was take our technology, learn from the 
smart doctors and some of the researchers at places like NIST, 
take those learnings and findings, apply our technology to 
build safer helmets. So we consider ourselves an ingredient 
brand. We work with large host brands in retrofitting their old 
solutions with our new technology to make their product better 
for the consumer. Basically, we try to make sure we understand 
what the medical professionals were saying, as well as the 
parents and others who are buying the product for their kids.
    Chairwoman Comstock. Great. Thank you. And, others, if 
you'd like to engage on that question, how do we sell this to 
the public at broad and understand all the cross benefits from 
it in so many different areas? Sure.
    Mr. Kebschull. Yes, if I may, one of the things that has 
become clear to me is that these kind of innovations have a lot 
of spillover into far greater areas than what we're really 
targeting. I mean, in the Head Health Challenge III we were 
targeting football helmets was really kind of our main focus, 
maybe other protective equipment as well, but we started 
brainstorming other ideas where this kind of material could be 
used, and we were coming up with things like roadside barriers, 
you know, protective equipment for the--where there are 
construction zones and things like that, which are hazardous 
areas right now. And we think our material concept can be 
applied to those other areas as well, and to date, nobody's 
really started talking that much about that kind of approach.
    Chairwoman Comstock. Okay. And as another area, you know, 
we know links now from head injuries and dementia and even 
possibly Alzheimer's. Is this another area where, as you have 
that improvement, whether it's in sports or other areas, that 
it also has that down-the-road impact of maybe lessening what 
we're seeing in dementia or Alzheimer's to the extent that we 
have knowledge about that now?
    Mr. Kebschull. Yes, I was talking to a medical doctor who 
was working in the field of brain trauma, and they're 
approaching the concussion problem from another aspect, from 
kind of a nutritional supplement aspect that would--I'm not 
sure on the details--some kind of antioxidants that would 
protect against long-term damage from repeated impacts. But 
they were also hopeful that that would apply then to 
Alzheimer's field as well, so it's possible that the plaques 
that are developing in the brain--and I don't understand all 
the medical issues very well--but those could be protected by 
this same kind of nutritional supplement that could protect 
concussion injuries as well.
    Chairwoman Comstock. Excellent. Anyone else want to jump 
in?
    Dr. Dehgan, I just wanted to thank you. I loved your 
characterization of how you--you know, for us incentivizing the 
needle to find us and really getting outside the box on this, 
so I thought you really captured that well, and I think the 
importance of this is capturing the public's imagination. And, 
Mr. Springs, bringing your experience into it I think really 
does kind of sell the idea to the public at large in so many 
areas, so thank you for vividly, you know, describing that and 
capturing that for us. Thank you.
    I'll now yield to Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. As I mentioned in my opening 
statement, federal funding for R&D traditionally comes through 
grants and contracts, investments in research and 
infrastructure, and I don't think I want anyone to think 
listening to this hearing that we are suggesting otherwise, 
that this is just an easy way to save money because I think 
it's important that we keep funding to the way we've 
traditionally done the funding. I think this is just a way to 
add to that to really unleash and find in places that we 
would-- someplace we would expect to find them and we're not 
finding as much as we have--you know, as we should be able to I 
think in our research universities to sort of unleash that--you 
know, the entrepreneurial spirit there and all the way, too, as 
Dr. Dehgan talked about, the auto mechanic in Argentina coming 
up with a solution through a challenge. So I want to start out 
by asking Dr. Dehgan. To what extent and how should agencies 
integrate prize and challenge competitions into this broader 
federal R&D?
    Dr. Dehgan. It's a phenomenal question and important. The 
standard for us is they should be used when there's a clear and 
measurable outcome defined in advance, and in particular where 
the objective is clear but the way to achieve it is not, right?
    And it allows us to do one thing. There is this incredible 
democratization of science and technology that has happened, 
just the prices of processors and the power of processors and 
memory and--has increased exponentially but decreased 
exponentially in cost. We have incredible opportunities for 
iteration of design thanks to additive printing. We have 
greater connectivity and access to knowledge ever than before. 
That has allowed for a greater democratization of science and 
technology. That allows us to capture many other people, but we 
still need basic research to be able to create the underlying 
basis for that democratization of science and technology.
    We still need to advance what we are doing in creating the 
diversity of potential solutions and the advances of knowledge 
to be able to solve many of these problems, but we can harness 
them in new ways and in complementary ways particularly where 
we are stuck on a particular problem or where that problem has 
tended to focus on a single discipline where we can cross and 
capture the potential of other disciplines to help contribute 
to solving that problem.
    And that's where I think prizes and challenges work really 
well is where do we want to capture the democratization of 
science and technology? Where do we want to actually make use 
of the existing funded research and particular broaden the 
number of disciplines that are involved beyond it, where do we 
want to actually inspire the public, and where can we actually 
unlock private capital? Because I think that has been one of 
the great things. The DARPA Grand Challenge for the self-
driving car was for the marines, but the application is a 
revolution that we probably couldn't have foreseen or DARPA 
couldn't have foreseen 13 years ago.
    Mr. Lipinski. Dr. Dehgan--and I also want to ask Dr. 
Fasolka--any recommendations on what can be done better by 
federal agencies to design these challenges?
    Dr. Fasolka. This being the first challenge that we did 
under the new authority under AICA, NIST really learned that 
having a community of practice within the organization that 
really knew a lot about how to implement the authority, how to 
use it to work in a private-public partnership, how to 
effectively communicate the challenge to folks. That was what 
we learned at NIST is that having in terms of advice that you 
can get, guidance that you can get or how to implement these 
challenges, there's a lot more out now than there was when we 
started. So what we learned is that the more that you know 
about how to get into these things and properly manage them, it 
can stop--some of the things that we did when we started, We 
were going to for the first time give cash, for the first time 
work with--in a public-private partnership, for the first time 
do something where NIST would be receiving materials to test. 
And so it took us a long time to get up to speed and actually 
launch it and probably longer than we expected going into it.
    Mr. Lipinski. Dr. Dehgan?
    Dr. Dehgan. Yes, so elements of good design, I think this 
idea of a challenge creating a community of practice is really 
important because what you're trying to do is create an 
ecosystem of solutions. And I think we have focused on the 
competitive aspects of challenges, but there's also 
collaborative aspects of challenges. How do you advance 
knowledge overall in terms of what you're trying to do? How do 
you actually capture the losers in the challenge and make sure 
that they benefit? Scale has to be built in at the beginning 
within what we're trying to do, so thinking about what happens 
after the challenge, how do we benefit the companies that are 
taking on these solutions and helping them implement what 
they're doing into helmets, into every aspect of American life 
is really important. Leverage is great and leverage allows you 
to mitigate risk and have greater impact, so thinking about who 
your partners are within you doing the challenge.
    And then even things like--it is clear that money is 
insufficient by itself--is one great benefit of potential 
challenges but, as Mr. Springs pointed out, the recognition is 
really important because that can untap investment. That can 
bring credibility to people, so thinking carefully about the 
prize purse and the benefits are critical.
    And one of the things just to recognize about challenges--
and it's a limiting factor--is we are shifting the risk. 
Because it is pay-for-performance, we're shifting the risk on 
the innovators, right? We're asking them. So the benefit that 
we are providing them has to be commiserate with the risk that 
we're asking them to take within it.
    And the last--just two other things. I think we--our prizes 
and challenges should be audacious but achievable, so we do 
want to inspire that public imagination that Chairwoman 
Comstock talked about. And the other piece is that even failure 
is instructive. The first DARPA Grand Challenge no one won, 
right, but we have a self-driving car industry because they 
continued to do that two more times and learn from that.
    Mr. Lipinski. Thank you. I yield back.
    Chairwoman Comstock. I now recognize Mr. Marshall for five 
minutes.
    Mr. Marshall. Thank you, Chairwoman.
    I continue to believe that innovation is going to do more 
to drive the cost of health care, the money spent on health 
care, down than any piece of legislation that we can write. And 
this is one more example. If these concussions weren't 
happening, we wouldn't be spending money on MRIs and CAT scans 
and ER visits and overnight stays at the hospitals.
    I think I'll go with my first question to Dr. Fasolka. Like 
many of us, we've had children play football. My youngest son, 
an all-state running back, not quite as fast as Mr. Springs or 
quite as big but was certainly a great football kid--had three 
concussions. Those were some of the longest days of my life 
watching my son not be himself, not knowing maybe who he was, 
where he was, just kind of in a third world almost. And at the 
time I did research. Other kids with concussions and it was--
Kevlar was about the only thing on the market that I saw, so my 
question for Dr. Fasolka is how much better are these new 
materials than Kevlar is, 20 percent better, 100 percent 
better? If you--you're the--go ahead.
    Dr. Fasolka. The measurements that we did in our challenge 
prize showed that compared to baseline materials, the kind of 
foams that Mr. Kebschull mentioned, that they could improve 
impact absorption sometimes 80 percent better than what we saw 
in the sort of old technology. But what's more important is the 
ability for the material to mitigate these rotational forces, 
these shear forces. And this is really the thing that makes 
these new technology special.
    Mr. Marshall. Did you measure Kevlar as well? Was that one 
of your base materials that you tested?
    Dr. Fasolka. No, the baseline materials that we tested were 
basically foam rubber that you would see in a helmet 
technology, so just the pad----
    Mr. Marshall. The traditional----
    Dr. Fasolka. --right?
    Mr. Marshall. The state-of-the-art helmet?
    Dr. Fasolka. State-of-the-art helmet.
    Mr. Marshall. Did anybody else test it against Kevlar--I'm 
just curious--in anything? Okay--go ahead.
    Dr. Fasolka. Yes, Kevlar--I mean, we test Kevlar at NIST--
--
    Mr. Marshall. Okay.
    Dr. Fasolka. --but usually, it's for ballistic protection.
    Mr. Marshall. Okay.
    Dr. Fasolka. Yes.
    Mr. Marshall. There was products on the market with Kevlar, 
and that's what I----
    Dr. Fasolka. Yes.
    Mr. Marshall. --purchased and tried. That's the best thing 
I could find at the time. I'll go to Mr. Springs next. Tell me 
a little bit about turf material. Have you done any work with 
turf material and any thoughts on that?
    Mr. Springs. We have not done any work on turf material. 
There are companies who are innovating on new solutions that 
can go underneath the turf. I think Viconic is one that comes 
to mind that you might have seen in NFL commercials. I would 
say one of the things that's important from our perspective as 
a startup company is that innovation can be sparked by money 
and the partnerships, as well as the learning from NIST and 
universities like Duke--when we won the HeadHealthTECH 
challenge working with Duke University and those guys holding 
our hand through the process was really good. So it goes beyond 
money. It's about the partnerships and the relationships and 
the validation. Winning the award at Texas Medical Center as 
well, the validation helps.
    Mr. Marshall. Certainly from my experience I think that 2/3 
of the concussions I saw in football were related to the heads 
hitting--going backwards----
    Mr. Springs. Yes.
    Mr. Marshall. --and getting hit, and I think that the 
incidence of concussions doubled when our high school went from 
a traditional field to a turf, and it's my belief there needs 
to be national standards of what this turf needs to be made out 
of and that you all should be testing it and saying, look, if 
we're going to subject our kids to this, that this is the 
standard. Is anybody seeing anything in your industry going 
towards that?
    Mr. Springs. Well, I think it's there. You've got to look 
at the turf. I think you also have to look at the rules of the 
game. I know that in the Ivy League, Dartmouth was one of the 
first schools who actually took tackling out of practice and 
reduced concussions by 70 percent, so as I see it--it's looking 
at the materials, the way the helmets being built, the surface 
the game is played on, as well as the rules of the game, I 
think it's a collaboration of all those things coming together.
    Mr. Marshall. Is anybody else seeing as much work with the 
turf as they are with the helmets? I think it's half the--at 
least half the equation.
    Mr. Springs, back to you. The NFL is certainly the gold 
standard, and all of us--Great Bend High School now uses a 
super concussion protocol. It's so much better than it used to 
be, and we are doing it by the book. There's no more pressure 
from the coaches that, ``Hey, your kid's the star running back; 
he's got to get back in there for this big game.'' That 
stigmata has gone away. Is your impression of the NFL that 
maybe some of that traditional ``You just got to toughen up and 
get back in there,'' do you think it's improving? Is NFL doing 
everything that they can do to help us lead the way?
    Mr. Springs. Well, I think the awareness at the parent 
level and at the youth level, moms are more concerned. Moms and 
the whole community as a whole are getting better in 
understanding concussions. When I came up, my generation, they 
would tell you to just sniff a little smelling salt and go back 
in. Now, I think teachers, parents, coaches, everybody who's 
involved with youth or kids playing a sport is aware of the 
seriousness of traumatic brain injury and concussions.
    Mr. Marshall. How about the NFL? Do you think----
    Mr. Springs. But to answer your question----
    Mr. Marshall. --what's the culture over there?
    Mr. Springs. --I think the guys who are playing in the NFL 
today are more aware of the seriousness of traumatic brain 
injury. We saw what happened a few weeks ago when Ryan Shazier 
was hit in the Steelers-Cincinnati game, and I believe every 
player is aware of the seriousness of sports injuries. I think 
the NFL is also doing its best in trying to educate the players 
as well.
    Mr. Marshall. Chairwoman, can I have another minute since 
there's nobody else back yet? Or we can go across the aisle and 
come back to me if you want to if we have time.
    Okay. I want to talk to the military just a second. I'm 
more concerned about mini-concussions, just a chronicity of 
mini-concussions than I am one big blow. And one of my theories 
is posttraumatic stress disorder may be related to this--these 
hundreds and thousands of mini-concussions. Have any of you 
done any research or what are we doing for our soldiers to help 
with those mini-concussions? I think you sit next to a tank or 
you're in a tank and a boom goes off, you can feel the force of 
it even though you have hearing stuff in but there's got to be 
just some incredible forces going on. Anybody touch the 
military more so? Go ahead.
    Mr. Kebschull. We did a little bit of work with military 
helmets in our impact test lab and in our other research, and 
military helmets are--most of the effort that goes into 
designing military helmets is for ballistics. And I think 
impact protection is kind of an afterthought. I don't mean to 
be too harsh on the people who do those helmets, but they have 
multiple pads in them, and those pads are Velcroed in so 
they're configurable. And you can imagine that in hot climates 
like Iraq or Afghanistan the soldier is saying I'm going to go 
with just--take several of the pads out of there and I'll get a 
lot more ventilation and it'll be a lot more comfortable. So I 
think there does need to be more research done on military 
helmets with respect to impact protection and not just the 
ballistic protection.
    Mr. Marshall. Okay. All right. Thank you, Chairwoman. I 
yield back.
    Chairwoman Comstock. Thank you, very instructive. I 
appreciate it.
    And I now recognize Mrs. Johnson.
    Ms. Johnson. Thank you very much.
    I'd like to hear from each one of you as it relates to the 
topic since there are many questions now about injuries to the 
brain but I want to especially ask Mr. Springs. Mr. Springs, I 
know your father and his Dallas family extremely well, and you 
must be a very proud son.
    The products that have been designed to attempt to avoid 
some of the injuries that have been talked about to the brain 
in the field of football, have you seen any results or have you 
been able to tell that you're on the right track?
    Mr. Springs. I believe there are companies out there in the 
last five years who have looked at the seriousness and are 
getting the push from parents to build better products, so I'm 
excited about the future of technology.
    There's one thing I will say there. Innovation, in football 
particularly, has come a long way since the Virginia Tech 
standard. That came out only five years ago when the Virginia 
Tech star rating, which talks about the risk of concussion. 
When that came out, there was only one five-star and now 
there's 13 in football. I think other industries like hockey 
and baseball will follow suit as their standards and scoring 
systems to rate these helmets, it will continue to improve.
    I will also say that more of these manufacturers are 
receptive or open to new innovation from the outside where 
maybe five years ago that wasn't the case. So I'm encouraged by 
the fact that there are large brands who are looking for 
outside technology like our technology and what 6D uses in 
their motocross helmets and their helmets as well. So I 
believe--I am encouraged that the direction of technology is 
improving. I do believe that we need to also update our 
standards so companies like Windpact and other companies who 
are innovating technology, the standards are on the same page 
and speed of innovation.
    Ms. Johnson. Thank you. Any other comments?
    Mr. Kebschull. I would just like to follow up on what Mr. 
Springs said about the Virginia Tech star rating system for 
football helmets. That's another aspect where you're looking at 
a competition. It's not a prize competition, but it's a 
competition that results in better helmets. And standards alone 
are just a minimum bar that people have to meet in order to 
sell a helmet, and what happens when there's only a standard 
and no star rating system or other kind of competitive system 
is that everybody just gets themselves over the bar and they 
don't have this kind of innovation that develops better 
products.
    Ms. Johnson. Thank you. Yes?
    Dr. Fasolka. The standards now, too, are really aimed at 
these sort of linear impacts still, and so this is one of the 
things that NIST would like to help with is to begin to help 
the private sector. These are consensus standards from 
industry, so that body be able to underpin new standards with 
the new science that we're learning about how shear is 
important, rotation is important, and if they can properly 
measure that.
    Ms. Johnson. Any other comments from anyone?
    Dr. Dehgan. Just one thought. I'm not an expert in football 
unfortunately, but one of the ways that we could use which is a 
subset of prizes which are called advanced market commitments 
as a way of doing--how do you deal with this challenge of 
standards being that minimum bar. So could--you know, how can 
the government actually work together to organize high schools, 
colleges, professional leagues to say we will buy all the 
helmets that are made that involve a 50 percent decrease in 
concussions.
    The Department of Energy did this with rooftop air-
conditioning units. They had the big box storse say we're going 
to create the incentive for a market if you guys can improve 
the energy efficiency of these units. Not a dollar of federal 
taxpayer funds were used in doing that, but there was 
investment that was created and a drive that was created to be 
able to meet those incentives because there was an established 
market. At USAID and Gates, we created the global vaccine 
initiative, GAVI, actually around the same idea to create an 
advanced market commitment for neglected tropical diseases, so 
this is one way to think about how we may get around that 
problem.
    Ms. Johnson. My time is about expired, but I want to ask 
if--do you think that it's appropriate that some additional 
research be funded by the government since this is such a broad 
spectrum sport and not just football but--and we are seeing 
more and more questions about the injuries to the point where 
parents are beginning to be a little skeptical of their 
children going into the profession. It does concern me. I'm a 
strong Dallas Cowboys fan from the beginning until now, and I 
know that this is mostly Redskin country, and I do pull for 
Redskins now and then when they're not playing the football 
team called Cowboys, America's team, but I really am very 
interested in this because I think it does have a very wide 
interest of the public. Thank you.
    Chairwoman Comstock. Okay. Thank you. I now recognize Ms. 
Bonamici for five minutes.
    Ms. Bonamici. Thank you very much, Chairwoman Comstock and 
Ranking Member Lipinski, for this good bipartisan discussion. I 
really appreciate it. I want to just first mention I 
appreciated the discussion between Mr. Marshall and Mr. 
Springs. When I was in the Oregon Legislature, serving on the 
Education Committee we had this very poignant hearing where a 
father came in and his son was basically unable to continue 
learning, had serious brain injury. He thought it was because 
of the helmet, but after many hearings and talking with 
healthcare experts, it's because he had multiple concussions 
and was sent back into the game after his concussions had 
healed.
     And we ended up actually passing a requirement that 
someone with training in concussion identification had to 
authorize a student to go back into the game. And lest anyone 
think that people complained about that being overregulation, 
the coaches really appreciated it because it got them off the 
hook. There wasn't the pressure. They could say, ``I can't send 
you back into the game because I have to have this expert 
opinion.''
    But then I also wanted to follow up on the conversation 
about the troops and--that Mr. Kebschull was talking about and 
how do we make sure that our troops get the protection they 
need and deserve. And it reminded me of visiting Oregon Aero, 
which is a company in the district in northwest Oregon I'm 
honored to represent. They make seating systems for aircrafts 
and also make ballistic helmet pads and liners.
    And when I was out there touring, talking with them a while 
back, they were mentioning that the military used to buy the 
product but then they found something less expensive. And then 
they showed me. And in fact I was just looking at the current 
blog. There's a nonprofit organization that was founded to help 
get their product to the troops because our military is not 
buying them because they found something less expensive. There 
are so many complaints. The current helmet pads--troops are 
complaining they're stiff, they give them headaches, they don't 
make the helmet fit properly, they get too hot, they get too 
cold, so they take them out, and then they're at great risk. So 
this nonprofit was formed to help get the pads to the troops 
because they'll leave them in. They can wear their helmets and 
protect their brains, and they've now--this nonprofit 
organization has now sent more than 88,000 of these upgrade 
kits to our troops overseas, so that's not really the best 
model.
    So I guess my question maybe to the panel is when there is 
something that's a good product like that, how do--you know, 
making change at the Department of Defense and the Pentagon is 
really not that easy. How do we make sure that our troops are 
getting what they need? And maybe NIST can start. How do we 
convince the Department of Defense if there's a product that's 
really helping? Maybe it's a little more expensive, but taking 
care of brain damage is really--and PTSD is really expensive as 
well.
    Dr. Fasolka. Well, we have talked to the Army in particular 
about this, and they are aware that the technology in the 
helmets right now for this kind of padding is out of date. I 
think that this is one of the reasons why this challenge is 
important, these kinds of challenges are important because of 
this broad effect that they can have by bringing innovations 
forward. And so they're quite interested in learning about what 
came out of ours.
    Ms. Bonamici. I'm glad to hear that because it was a while 
back when I was learning this from Oregon Aero. And so they've 
known that they've been out of date for a long time, so I'm 
just saying we need to have a conversation. And hopefully the 
work that you're doing is going to help with that.
    You know, we here in Congress have an app challenge, so 
certainly--I have seen just from the very small scale 
congressional district high school students who submit their 
innovation to the app challenge, we know what can come from 
this sort of competition and prize. But one of the concerns at 
that level I always think, ``Oh my gosh, who's going to judge 
this?'' How do you--in a prize competition like this, how do 
you set up the metrics for, you know, clear expectations and 
success? And then how do you deal with things like intellectual 
property rights? So I'll let, you know, all of you address that 
as well.
    Dr. Fasolka. So we thought a lot about this of course, and 
so we had some metrics that were real scientific metrics like 
you'd see in a grant. What's the level of innovation? What's 
the level of being ready to be commercialized? Then we had a 
lot of hard numbers in the competition as well. They had to 
take 1,200 hits without failing. They had to work at hot and 
cold temperatures, so to really think about, well, what's the 
environment that these materials have to be in?
    In terms of intellectual property, yes, there was no 
interest in the government from our perspective in acquiring 
anything. This is their property. Our job was to spur 
innovation, so that's an easy answer for us.
    Ms. Bonamici. Well, as my time is expired, I just want to 
close by saying that we are a country that is proud of its 
innovators. And this type of prize and competition is certainly 
one step, but there's a lot of other things we can be doing.
    And I know Ms. Johnson mentioned the graduate students' 
tuition waiver and the tax bill. I'm happy to say that at least 
after the vote, many members who actually supported the bill 
have sent a letter now opposing the repeal of that income 
exclusion for tuition waiver. So we can't inhibit our young 
people and our students from becoming innovators who may solve 
these next challenges. So I hope that whatever tax bill comes 
out fixes that as well.
    So thank you, Madam Chair, and I yield back.
    Chairwoman Comstock. I thank you. And actually I recognize 
Mr. Marshall for one more minute, another question.
    Mr. Marshall. Sorry, I'm pretty inquisitive.
    Chairwoman Comstock. Dr. Marshall, sorry.
    Mr. Marshall. That's all right. Wichita State University 
has a creation center, and they are able to use artificial 
intelligence to--in their case to say design the perfect, most 
structurally sound wing for an airplane or a jet with the least 
material. And I'm just curious if you've tried to use 
artificial intelligence to drive the perfect helmet, the 
perfect turf, the perfect--what we're trying to get at here if 
you guys are using artificial intelligence in any way in your 
companies?
    Mr. Kebschull. Well, it's not quite artificial intelligence 
in the traditional sense, but we did have an optimization 
software and an optimization procedure which seeks to find the 
path to the right material. So we're--we input--the inputs to 
it are the parameters and what ranges you'll allow it to have, 
you know, between the stiffness of X and Y or a dimension 
between A and B and so on. And then the software will run 
multiple, multiple simulations in order to try and find the 
optimum solution, so it's a way of optimization that's a little 
bit different than artificial intelligence, but it's maybe a 
little bit along those lines.
    Mr. Marshall. I think the shear force is especially--the 
artificial intelligence may be able to help us to figure out 
not just what material but how to place it. Dr. Fasolka, are 
you guys doing anything at NIST with it?
    Dr. Fasolka. Yes. The place for artificial intelligence at 
NIST is really within the Materials Genome Initiative, which 
is----
    Mr. Marshall. The what, I'm sorry?
    Dr. Fasolka. The Materials Genome Initiative.
    Mr. Marshall. Okay.
    Dr. Fasolka. It's a multiagency initiative. It's DOD, DOE, 
NIST, NSF really aimed at accelerating materials design and 
deployment. And using these kind of techniques so that the idea 
of course is to have a design-forward sort of approach, a lot 
of computation, ways of optimizing it. Artificial intelligence 
is sort of a continuum from of modeling to something that 
really looks like a human brain thinking about things. But in 
the middle, you know, we're using these very clever 
computational techniques to get to an optimum----
    Mr. Marshall. Yes.
    Dr. Fasolka. --so we are partnering as the next step in our 
research using Materials Genome Initiative approach with our 
Center of Excellence and the Center of Excellence for 
Hierarchical Materials Design in the Chicago area to really 
have a Use Case that can use these kind of artificial 
intelligence approaches to design materials that do exactly 
what you're talking about, really optimize the shear response, 
optimize while keeping that compression response. So yes. So 
that's what we're embarking on next.
    Mr. Marshall. Thank you.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Lipinski for some additional questions.
    Mr. Lipinski. I thank the Chairwoman for yielding the 
additional time here. I wanted to follow up. I asked Dr. 
Fasolka and Dr. Dehgan about anything--any recommendations they 
had for what the--what federal agencies could do better in 
designing these challenges. So I want to ask Mr. Kebschull and 
Mr. Springs if they had any thoughts on the design and also 
the, you know, follow up of the--of challenges, if anything 
could be done better. So, Mr. Kebschull?
    Mr. Kebschull. Yes, thank you. From my viewpoint it went 
extremely well. The one thing I would've probably preferred was 
to see perhaps clearer targets being set. We were given a very 
vague direction in that make your material better, make it 
perform well in linear and shear impacts, but we didn't really 
know how good is good or what is it that--exactly that you're 
looking for. And, for example, the shear test was not developed 
until pretty well into the process, so I kind of felt like we 
were playing catch-up along the way. But overall, I have mainly 
good things to say about NIST because they were really helpful 
in getting us the data that we needed in order to validate and 
use our computer simulation models.
    Mr. Lipinski. Mr. Springs, anything that you would care to 
add?
    Mr. Springs. Yes, to follow up a little bit on that is kind 
of what you said, Dr. Dehgan--did I say that correctly? It 
might have been a lot of tackles. Clear and measurable are the 
words I heard, and that's kind of as a young company you want 
to be exact--because your resources are limited, you want to be 
exacting on what you're trying to achieve, what the outcome may 
be from the funding, or what you can ask for. And I think 
that's critical for any company just have a clear understanding 
of what it takes or what are the measurables or what you need 
to get to solve for, the steps you need to solve for, and just 
make it clear and easy so that everyone can understand it.
    Mr. Lipinski. All right. Thank you.
    Chairwoman Comstock. Well, thank all of you. This has been 
a great hearing. I really appreciate all your expertise. Thank 
you for your testimony and the Members for their questions.
    And the record will remain open for two weeks for 
additional written comments or written questions from Members.
    And this hearing is now adjourned.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questi

                   Answers to Post-Hearing Questions
Responses by Dr. Michael Fasolka

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Scott A. Kebschull

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Alex O. Dehgan

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Shawn Springs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
